No. 20-1391
IN THE

Supreme Court of the United States
_________
SPORTSWEAR, INC., D/B/A PREP SPORTSWEAR,
Petitioner,
v.
SAVANNAH COLLEGE OF ART AND DESIGN, INC.,
Respondent.
CERTIFICATE OF SERVICE
I, Adam G. Unikowsky, hereby certify that I am a member of the Bar of this
Court, and that I have this 27th day of July 2021, caused a paper copy of the Reply Brief
In Support of Petition for a Writ of Certiorari to be delivered to the Court and an
electronic version of the document to be delivered to:
Gregory George Garre
Latham & Watkins LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com

Adam G. Unikowsky
Adam G. Unikowsky

